<html>
<title> - HELPING FIND INNOVATIVE AND COST-EFFECTIVE SOLUTIONS TO OVERBURDENED STATE CRIMINAL COURTS</title>
<body><pre>[Senate Hearing 111-632]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-632
 
 HELPING FIND INNOVATIVE AND COST-EFFECTIVE SOLUTIONS TO OVERBURDENED 
                         STATE CRIMINAL COURTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2010

                               __________

                       PHILADELPHIA, PENNSYLVANIA

                               __________

                          Serial No. J-111-87

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
61-572                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d9bea9b699baacaaadb1bcb5a9f7bab6b4f7">[email&#160;protected]</a>  

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hannibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Kaufman, Hon. Edward E., a U.S. Senator from the State of 
  Delaware.......................................................     2
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Abraham, Lynne M., Partner, Archer & Greiner, P.C., Philadelphia, 
  Pennsylvania...................................................    13
Gillison, Everett A., Deputy Mayor for Public Safety, 
  Philadelphia, Pennsylvania.....................................     9
Goldkamp, John S., Professor, and Chair, Department of Criminal 
  Justice, Temple University.....................................    11
Greenlee, Ellen, Chief Public Defender, Philadelphia, 
  Pennsylvania...................................................     6
McCaffery, Seamus, Supreme Court Justice, Supreme Court of 
  Pennsylvania, Philadelphia, Pennsylvania.......................     3

                       SUBMISSIONS FOR THE RECORD

Abraham, Lynne M., Partner, Archer & Greiner, P.C., Philadelphia, 
  Pennsylvania, statement........................................    31
Gillison, Everett A., Deputy Mayor for Public Safety, 
  Philadelphia, Pennsylvania, statement..........................    51
Greenlee, Ellen, Chief Public Defender, Philadelphia, 
  Pennsylvania, statement........................................    57


 HELPING FIND INNOVATIVE AND COST-EFFECTIVE SOLUTIONS TO OVERBURDENED 
                         STATE CRIMINAL COURTS

                              ----------                              


                          MONDAY, MAY 3, 2010

                               U.S. Senate,
                   Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:05 a.m., in 
Kirby Auditorium, The National Constitution Center, 
Philadelphia, Pennsylvania, Hon. Arlen Specter, Chairman of the 
Subcommittee, presiding.
    Present: Senator Specter and Kaufman.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Ladies and gentlemen, the Criminal Law 
Subcommittee of the U.S. Senate Committee on the Judiciary will 
now proceed. I first welcome my distinguished colleague, 
Senator Ted Kaufman, who has graciously come up from his home 
in Delaware this morning to join us on this panel. Senator 
Kaufman is a member of the Senate Judiciary Committee. And I 
welcome the witnesses here today, a very, very distinguished 
panel, to proceed with our inquiry into the criminal justice 
system in the city of Philadelphia in the light of disclosures 
made in an extensive series of articles in the Philadelphia 
Inquirer. This is the third in our series of hearings.
    The first hearing focused on the problem of intimidation of 
witnesses, and at that time we heard from parents of two young 
people who were murdered because they were about to testify in 
a criminal proceeding. And, obviously, it is intolerable to 
intimidate witnesses because that is the way the case proceeds, 
on the testimony of the witnesses. We have taken action in the 
Senate on the introduction of legislation which would make 
intimidation of witnesses in a State court proceeding a Federal 
crime. Today it is not a Federal crime. It is a violation of 
State law, but it is very different to have a Federal charge 
possible which brings in the FBI and brings in the tougher 
judicial system of the United States Federal courts. We have 
also moved ahead passing legislation out of Committee which 
would increase the funding by the Federal Government for 
witness protection. The Federal Government has a witness 
protection program which works pretty well, and we really need 
to move ahead to get the States to have a similar program.
    The second hearing focus is on the problem of fugitives. 
Many people skip bail, and we found, much to our chagrin, that 
there was no system in place to report to a national 
clearinghouse the fact that somebody had jumped bail in 
Philadelphia so that if they were apprehended, illustratively, 
say in St. Louis, there was no way to notify Philadelphia 
authorities they were in St. Louis and could be brought back to 
Philadelphia for trial. We have moved ahead to have legislation 
for more Federal funding to help with detention of fugitives, 
and we have also gotten a response from the United States 
Marshal to assign additional Federal personnel to finding 
fugitives.
    Today we have a distinguished panel: Justice Seamus 
McCaffery of the Pennsylvania Supreme Court. Chief Justice 
Castille has appointed Justice McCaffery to look into this 
situation with the Supreme Court's authority in the field. We 
have the distinguished former district attorney of 
Philadelphia, Lynne Abraham, who served 18 years, was the first 
woman to hold the position and the longest-serving district 
attorney.
    I might say in passing, with some pride, Lynne Abraham was 
an assistant in my office, and a very able one. And I might 
say, also with some pride, that Chief Justice Castille, who 
appointed Justice McCaffery to look into this issue, is also an 
alumnus of my office. I will not go too far into the alumni 
society beyond the Governor and three colleges' presidents and 
the chief judge of the Federal circuit.
    We have with us Ms. Ellen Greenlee, the Chief Defender. She 
has been at that job for some 19 years, and has some very 
important views to express.
    We have Professor John Goldkamp from Temple University, who 
is the Chair of the Department of Criminal Justice, has served 
on advisory boards to both the State and the city, and had a 
hand in the analysis of the criminal justice system in 
Philadelphia in 1990. So he has a unique perspective.
    I am now pleased to yield to my distinguished colleague, 
Senator Kaufman, whom I again thank for joining me in this 
hearing.
    Senator Kaufman.

STATEMENT OF HON. TED KAUFMAN, A U.S. SENATOR FROM THE STATE OF 
                            DELAWARE

    Senator Kaufman. Thank you, Mr. Chairman. Thank you very 
much for having me up here. But I have watched, when I lived in 
Philadelphia for many, many years when you were district 
attorney, but even more so when I was Senator Biden's chief of 
staff when he was Chairman of the Judiciary Committee, it is 
not hyperbole to say that on criminal justice issues for I do 
not know how many years, you are the person that everyone on 
the Committee looks to, and you are the person that people in 
the Senate look to. Your record of accomplishments, your 
ability to kind of get to the nub of the problem, any problem 
you face, has been something I have watched for many, many 
years. So I am really glad to come up here.
    You know, Delaware is just to the south of here. It is like 
the old story, you know, when Philadelphia gets a cold, 
Delaware gets a fever. Many of our problems in Philadelphia, 
crime problems in Philadelphia, relate to the fact that we are 
on I-95 halfway between Baltimore and Philadelphia. So when you 
have problems up here, it really comes down and affects 
Delaware. That is the first thing.
    But the second thing is it is really important that we get 
this together nationally. This is not just a Philadelphia 
problem. I read all the testimony on the way up here and looked 
into these things. These are problems that cities are facing 
around the country, so it is a real Federal interest.
    There is a special interest to us because Philadelphia is 
the source of so many of the drugs that go into Wilmington, 
Delaware, and so what happens here is extremely important to 
the people of Philadelphia. And we have seen in Philadelphia a 
lot of the same things you see up here.
    We have seen witness intimidation, an anti-snitching 
culture, many of the difficulties that we see up here. And that 
is why I cosponsored your State Witness Protection Act of 2010 
to help deal with this anti-snitch problem. I believe the 
threat of Federal prosecution could have real impact on witness 
intimidation in State court.
    Mr. Chairman, the innovations you and these witnesses are 
discussing today should have impact far beyond Philadelphia. I 
look forward to listening to today's testimony.
    Chairman Specter. Well, thank you very much, Senator 
Kaufman, for those cogent words.
    We are honored to have Supreme Court Justice Seamus 
McCaffery with us today, a very unique career as well as a 
distinguished career. Justice McCaffery served in the 
Philadelphia Police Department for 19 years. You cannot get any 
better experience in the criminal justice system than that. He 
went to law school, is an attorney. He was on the municipal 
court of Philadelphia and became famous by having the so-called 
Eagles Court, which functioned during the Eagles football 
games, and he was able to adjudicate offenses right on the 
scene. Nothing like deterrence to have the judge right there to 
take action. Elected to the superior court and now on the 
Supreme Court, and as I said, the Chief Justice of Pennsylvania 
has designated Justice McCaffery to look into the overall 
situation. So we welcome you here.
    The time limit is traditionally set at 5 minutes, which 
would leave us the maximum amount of time for dialog after the 
witnesses testify. So the floor is yours, Justice McCaffery.

  STATEMENT OF HON. SEAMUS MCCAFFERY, SUPREME COURT JUSTICE, 
   SUPREME COURT OF PENNSYLVANIA, PHILADELPHIA, PENNSYLVANIA

    Justice McCaffery. Thank you, Senator Specter, Senator 
Kaufman. Thank you so much for inviting me here today 
representing the Supreme Court of Pennsylvania on this very 
important matter, not only to Philadelphia but to the 
Philadelphia region.
    Senator, as you pointed out, my first exposure to the 
Philadelphia municipal court and the criminal justice system 
was in 1970 when I got out of the Marine Corps and joined the 
Philadelphia Police Department. It was shortly after the 
creation of the Philadelphia municipal court, so I have many, 
many years of exposure to both municipal court and the Court of 
Common Pleas here in Philadelphia County. And, gentlemen, I say 
this without exaggeration. What I have seen over the years, I 
have been very much dismayed.
    The system has really gotten both overwhelmed and out of 
control. It has diminished, in my opinion, in the ability to 
give quality justice to all parties, both the accused as well 
as the victims of crime.
    The municipal court, when I was first elected there in 
1994, we had approximately 23 trials a day in a courtroom. That 
is trials, not preliminary hearings. And as such, we had, of 
course, motions practice, et cetera. So these were not just 
wham-bam, easy types of cases. By the time I left 10 years 
later, we were over 45 trials a day in a courtroom. We went 
from 35 to 40 preliminary hearings out in the districts to 
upwards of 70 and 75 preliminary hearings a day.
    The volume of cases just continued to increase, and yet our 
budgets decreased. We did have an increase in members of the 
judiciary, but, quite frankly, we had so many additional 
charges put on us by the legislature that it increased the 
workload dramatically. Our judges were overwhelmed. Our 
defenders association was overwhelmed. Our district attorney 
was overwhelmed. We had young men and women coming into our 
courtrooms on any given day with 30, 35 matters a day they 
personally had to prepare for and handle, and then they would 
have to go back to their offices, work up their files, and last 
but not least, get another 35 for the next day. We have so many 
cases that were just being discharged because of time issues.
    When I took over as the administrative judge, 66 counties 
in Pennsylvania had 180 days from the date of arrest for a 
misdemeanor to the actual date of trial. Philadelphia County, 
the largest county, had 120 days. Why, you might ask? I have no 
idea. We have since changed that. We petitioned the Supreme 
Court. Philadelphia County is now on an equal footing with the 
rest of the State. We now have 180 days.
    But as you can imagine, Philadelphia, because of the 
magnitude of cases, the complexity of our system, the 
balancing, if you will, of problems between overtime 
constraints that the police department has to deal with and the 
courts trying to get cases on. One of the things I saw both as 
a police officer and the father of police officers was that 
when individuals were arrested, the police department tried to 
ensure that their officers would go to court on their day work 
tour of duty. Why? It was to cut down on overtime. But what we 
found were police officers with 5, 10, sometimes 15 court 
notices on 1 day. One day in a city, Senator, where we do not 
have, as you know, a centralized courthouse. We have 
courthouses throughout the city of Philadelphia, the county of 
Philadelphia, stretched as far as 55th and Pine all the way up 
to Academy and Red Lion, Broad and Champlost, et cetera. That 
means that these officers that are required to go to a trial 
for homicides, major crimes, and even the lower-level 
misdemeanor crimes, are now being required to travel all over 
Philadelphia. We have judges waiting, we have courts waiting, 
we have juries waiting. The system was just being clogged up by 
the morass that we saw.
    We tried a lot of innovative things, including bringing all 
the satellite districts into the Criminal Justice Center. But 
as I am sure you remember, Senator, because of budgetary 
cutbacks, what was once a larger footprint for the Criminal 
Justice Center became a much small footprint, thereby causing 
us to have fewer elevators, bigger congested lines to get on 
the elevators. It was pretty much a mess. And as a result of 
it, again, more action had to be taken to lessen the problem.
    So taking all of that into consideration, we tried our best 
to create a lot of different situations that would alleviate 
the congestion and get cases on.
    What happened was more and more cases were just being 
discharged. Why? Because they were either unable to put them 
on, again, because of police officers not showing up, witnesses 
not showing up--and, again, we all have to understand we have a 
balance here. You know, we have the rights of the accused to be 
balanced against the rights of the victims. So the reality was 
that cases were being discharged in an inordinate--I mean, an 
extremely large number. But, again, as a result of the Inquirer 
articles, we are now in the process, the Supreme Court, of 
creating--we created a panel to go into this whole problem and 
make suggested changes, some of which have already been 
implemented, Senator.
    Right now--or, recently, I should say, we found a study 
that was prepared in 1978, 10 years after the creation of the 
municipal court. That study pointed out incredible problems 
then, in 1978. This is 32 years ago. Those changes recommended 
by that study have still not been implemented.
    One of the big problems we have here, Senator Kaufman, is 
in a municipal court, we have what is called a de novo court of 
appeal. By that, I mean witnesses--everybody needs to show up 
and the case has to be put on, and if the outcome is not to the 
benefit of the accused, then they have an automatic right of 
appeal. That includes bail, everything. These individuals are 
allowed to stay on the streets. These individuals are basically 
given one free bite at the apple.
    In the 1978 report, it was recommended that we do away with 
de novo rights of appeal, then merge the court basically with 
the court of common pleas, make municipal court a division, 
because, remember, during the Constitutional Convention in the 
late 1960s, when the municipal court was originally created, it 
was created as a probationary court, and as such, it has 
really, really grown well beyond that. There have been no real 
serious changes since that time, and our court is looking to 
implement the changes that we feel are necessary to bring it in 
line with the rest of Pennsylvania.
    In closing, Senator, I just want to point out something 
that I am sure you recall quite clearly. Back in the late 1960s 
and early 1970s, we had the LEAP program, the Law Enforcement 
Assistance Program. That LEAP program went a long way to help 
urban law enforcement communities to increase their police 
departments. I would suggest to you that what is needed today, 
not just in Philadelphia but nationally, is a Criminal Justice 
Assistance Program because, quite frankly, we do not have 
enough probation officers. We do not have enough warrant unit 
officers. Our probation officers are so--we are over 100 
officers short right now. These officers are required to take 
their own vehicles and go out and check on their individual 
defendants.
    Chairman Specter. Justice McCaffery, how much more time 
will you need?
    Justice McCaffery. I am fine. I can just shut down right 
now, if you would like. But the reality is, as I have said, we 
need some Federal help to make some serious changes.
    Thank you.
    [The prepared statement of Justice McCaffery appears as a 
submission for the record.]
    Chairman Specter. Thank you. Thank you very much, Justice 
McCaffery.
    We would ordinarily turn to D.A. Abraham as a matter of 
protocol, but she has requested to go last, and we are glad to 
oblige. So we turn now to Ms. Ellen Greenlee, who is the Chief 
Defender. She had worked in the Defenders Office as a trial 
attorney, supervisor, first assistant, went all the way up the 
line, and the last 19 years as Chief Defender. She received the 
prestigious Sandra Day O'Connor Award from the Philadelphia Bar 
Association, graduate of Chestnut Hill College and the 
Villanova Law School.
    Before we began, I told her that I was in the Defenders 
Office for a month as a beginning lawyer. I will not cite the 
year.
    Ms. Greenlee, we appreciate your being here, and the next 5 
minutes are yours.

      STATEMENT OF ELLEN GREENLEE, CHIEF PUBLIC DEFENDER, 
                   PHILADELPHIA, PENNSYLVANIA

    Ms. Greenlee. They still talk about your service, Senator, 
as a defender.
    Thank you, Senator Specter and Senator Kaufman, for the 
opportunity to be here today. As you know, anyone probably who 
chooses the career of public defender has a bit of a maverick 
in them, so I have chosen today--in terms of the hearing of 
helping find innovative and cost-effective solutions to 
overburdened State courts, I have a particular viewpoint on the 
burden imposed on the poor who become embroiled in the 
Commonwealth's criminal justice system, and I would like to 
take this opportunity--I cannot pass it up--to speak to that 
burden and what is a very real crisis in indigent defense that 
was acknowledged by Attorney General Eric Holder, who convened 
a national symposium on indigent defense in February in 
Washington, D.C.
    In my view, what would be the most surprising innovation 
today in the criminal justice system would be for the 
Government--both Federal and State--to make real the promise of 
``equal justice for all'' by funding adequately defense 
services for our poor citizens caught up in the system. This 
innovation would mean parity of resources for the Government 
and the defense, oversight and monitoring of defense services, 
training and performance standards, as well as caseload 
standards to ensure quality, competent representation at all 
levels.
    As brief background, the Defender Association of 
Philadelphia, unlike public defender organizations in all other 
Pennsylvania counties, is a non-profit corporation funded 99 
percent by the city of Philadelphia. We have a staff of 480 
people, including attorneys, investigators, social workers, 
paralegals, and administrative staff.
    We are appointed by the courts to represent indigent adults 
and juveniles charged with criminal offenses, ranging from 
misdemeanors to capital cases. We also represent indigent 
citizens in civil mental health hearings, and our Child 
Advocate Unit represents dependent and abused children in 
contested custody matters.
    In calendar year 2009, we were appointed to 69,000 new 
cases. Our workload figures for attorneys show 396,000 court 
appearances in that year. We represented clients at 34,000 
preliminary hearings and at 87,000 misdemeanor trial listings. 
Overall we represent about 70 percent of criminal cases, 
exclusive of homicides, where we represent 20 percent of all 
court appointments.
    The criminal justice system here obviously could not 
function without us as one of the stakeholders and active 
participants in courtroom trial representation, as well as an 
active participant in the many diversion programs in place, 
such as Treatment Court, DUI Court, Mental Health Court, 
Community Court, and specific programs for juveniles, among 
others.
    As is the case throughout Pennsylvania, and increasingly in 
all counties and States, public defenders, as well as private 
court-appointed counsel, are overworked and grossly underpaid. 
The inevitable result of reduced funding and increased 
caseloads is representation that fails to meet the standards 
published by the American Bar Association and the National 
Legal Aid and Defender Association. The weight of the criminal 
justice system falls most heavily on the backs of the poor and 
disproportionately on minority populations.
    The indigent defense system, both statewide and nationally, 
is in crisis. It is not just those of us who work in indigent 
defense who realize this. Attorney General Holder, speaking at 
the Brennan Center in New York City on November 16th, commented 
that our adversarial system requires lawyers on both sides who 
effectively represent their clients' interests, whether the 
Government or the accused. Further, he said, the integrity of 
our criminal justice system aside, the crisis in indigent 
defense is also about dollars and cents. He cited the need to 
significantly improve the quality of representation provided to 
the poor and powerless. He has pledged to work in identifying 
potential funding sources, legislative initiatives, and to work 
with State and local partners to establish effective public 
defense systems. This is a start and a refreshing change from 
the policies of the previous administration.
    The need for adequately financed public defense services 
has expanded so drastically that today public defenders 
represent defendants in more than 80 percent of criminal 
prosecutions nationwide. In many States, diverse groups of 
middle- and low-income people are being processed through 
courts as if they were identical parts on a conveyor belt. And 
the collateral consequences of criminal prosecutions include 
immigration consequences, the ability to vote or own firearms, 
access to student loans and professional licenses, and public 
housing eligibility, among other modem equivalents of the 
scarlet letter. Many of these disabilities impede a person's 
ability to successfully integrate into the community. It does 
appear that our society has relegated forgiveness and 
redemption to the scrap heap.
    Pennsylvania has the dubious distinction of being the only 
State in the Union that provides absolutely no funding for 
indigent defense. Utah, which had been in the same category, 
began to provide some State funding, but is now in the process 
of reneging on that promise. The Pennsylvania State Legislature 
has effectively ignored a 1985 State Supreme Court decision 
calling for such funding. So it is up to each county to provide 
funding for indigent defense, and as you can well imagine, few 
county commissioners rank indigent defense highly on their list 
of priorities. Representation of the poor is, at best, uneven 
and, at worst, ineffective at times due to deficiencies of the 
county-funded systems.
    On a somewhat optimistic note, there are stirrings in our 
State capital around indigent defense issues. Out of the 
tragedy that is Luzerne County, where two corrupt judges sent 
hundreds of children into placement, often for trivial offenses 
and without the benefit of legal counsel, the Interbranch 
Commission will issue its report at the end of May, with 
serious recommendations aimed at upgrading juvenile defense 
practices. At the same time, I serve on a Joint Legislative 
Commission on Indigent Defense which is due to issue its report 
within the next couple of months. It, too, will offer 
recommendations----
    Chairman Specter. How much more time will you need?
    Ms. Greenlee. I only have a few lines, Senator. The 
Commission on Indigent Defense will offer recommendations for 
improvements in representation of the poor. Of course, we will 
then look to the legislature to fund these initiatives, the 
same legislature that has ignored the Supreme Court order for 
funding for 25 years. At best, we are very cautiously 
optimistic we will see real change in the provision of defense 
services in Pennsylvania.
    Ours is an adversarial system of justice which requires 
lawyers on both sides who effectively represent their client's 
interests, whether it is the Government or the accused. When 
defense counsel are handicapped by lack of training, time, and 
resources, we must wonder: Is justice being done? Is justice 
being served? Will you join us in working to reform the 
criminal justice system so that it truly reflects the most 
basic of American values: equality and fairness?
    Thank you, Senator.
    [The prepared statement of Ms. Greenlee appears as a 
submission for the record.]
    Senator Specter. Well, it appears that the first question 
has gone to me, and the answer to ``will I join you'', is of 
course I will.
    Ms. Greenlee. I thought you might.
    Chairman Specter. But I have been for decades.
    Ms. Greenlee. I know. That is why it was a good forum to 
raise this.
    Chairman Specter. Well, that is why Senator Kaufman and I 
are here. We sit on the Committee which initiates legislation 
and funding.
    We turn now to Deputy Mayor Everett Gillison, Deputy Mayor 
for Public Safety in the city, serves as co-chair of the 
Criminal Justice Advisory Board for the First Judicial 
District, was an Assistant Defender in Philadelphia, has his 
bachelor's degree from the University of Pennsylvania and law 
degree from Syracuse College of Law.
    We welcome you here, Mr. Gillison. These are issues that we 
have discussed extensively with the mayor and the former mayor 
and the preceding mayor and his predecessor, and we welcome you 
here as his representative.

   STATEMENT OF EVERETT A. GILLISON, DEPUTY MAYOR FOR PUBLIC 
               SAFETY, PHILADELPHIA, PENNSYLVANIA

    Mr. Gillison. Thank you, Senator, and thank you, Senator 
Kaufman, also for being here, and thank you for the opportunity 
to testify at this Senate field hearing, ``Helping Find 
Innovative and Cost-Effective Solutions to the Overburdened 
State Courts.''
    I am just going to probably end up summarizing, plus I will 
read a couple pages of the prepared testimony, but the bottom 
line is that we live in a digital age and we need to act like 
it in State courts, and we need investments from both the 
Federal Government and--the State government, yes, but the 
Federal Government also, to invest in digital technology so 
that we can end up helping one another through this problem.
    Technology is all around us. All manner of businesses take 
advantage of the latest technological innovations to increase 
production, save money, improve operations, and operate more 
efficiently. It would be unimaginable for a corporation with a 
$1 billion budget and 10,000 employees to still rely on paper 
and pencil to process their transactions. But that is 
essentially what we do in the criminal justice system.
    The public safety portion of the city's budget is 
approximately $1 billion. Between police, courts, the prisons, 
we employ approximately 10,000 people. But every day in the 
city's criminal courts, transactions are recorded by hand on 
paper. That paper is then shuffled between different 
departments. And it is no surprise that mistakes are made and 
errors occur.
    Now, I do not want to give a false impression that our 
criminal justice partners do not utilize technology. In fact, 
we do. But this technology is in many instances old, not 
adequately interfaced--and that is the key, interfacing--and 
many essential court functions are not automated. This makes 
the system vulnerable to mistakes.
    Increases in the use of technology will help our 
overburdened State courts. Clearly, a lack of available 
resources is the impediment to having our systems modernized 
and adequately networked so that work flow and essential 
processes are automated. Local governments are already 
overburdened and unable to make the technology investments that 
are critical to enhancing court efficiencies.
    Again, I do not want to give the wrong impression. Despite 
our collective lack of resources, the criminal justice partners 
in the city of Philadelphia have collaborated, especially over 
the past 2 years, to develop initiatives that have increased 
efficiencies in our State court system.
    In Philadelphia, the various criminal justice system 
partners recognize the need to process cases as quickly as 
possible. One type of judicial proceeding that can impact the 
overall system efficiency is a violation of probation or parole 
hearing. The need for a violation of parole or probation 
hearing results when a person is on probation and either fails 
to do something required or while on supervision does something 
not permitted under those terms. The judge supervising the 
probation or parole is authorized to hold or detain the 
individual until the judge has had an opportunity to decide if 
a violation has occurred and, if so, what action to take or 
sanctions to impose.
    I will depart from the prepared testimony and say over one-
third of the people that we have in our local county prisons 
are people who are being held simply on probation and parole 
matters. So if you can really understand how we would be able 
by having these kinds of technological investments, we would be 
able to process those matters a lot quicker. We would be able 
to have judges who would be able to use e-mail, BlackBerrys 
perhaps, even secure communications, to actual hold hearings at 
a time conducive to the judge's schedule, the defender's 
schedule, the D.A.'s schedule, and the prison's schedule, which 
obviously is available 24 hours a day, and depending on what 
judge you get, as I remember Justice McCaffery--you know, no 
one stops after 5 o'clock. People continue to work and can be 
available.
    These are the kinds of things that technology make 
available, but, unfortunately, as a city, we are limited by the 
amount of money that we can actually put in these particular 
areas. And we need the help of the Federal Government.
    I will actually submit--and literally, instead of just 
talking about this, I would just like to highlight the latter 
part of my testimony.
    The additional efficiency that I would like to highlight 
and mention is the implementation of video technology in our 
courts. Every day literally hundreds of inmates are transported 
to the Criminal Justice Center for trial or other hearing. 
Often the matters for which inmates were brought to the 
Criminal Justice Center are given another date for which the 
inmate would be transported again. With the assistance of our 
criminal justice partners, we have begun the use of video 
technology to eliminate the need to transport inmates from 
their facility of confinement to the courts. The reason why we 
are doing that is because we do not really have to have them 
for anything really other than a trial. Hearings can be 
conducted by video, as long as everyone is working together and 
understands the security of the system. But, again, it needs an 
investment of dollars in order to make that happen.
    I would just ask, in conclusion, that the Federal 
Government make the resources available to State courts to 
allow them to upgrade and modernize their technology 
infrastructure. These technological improvements will increase 
the efficiency with which the courts are able to process and 
dispose of cases. And hearing Justice McCaffery talk about the 
old LEAP program and the assistance program that did exist in 
the late 1960s, early 1970s, and into the first part of the 
1980s, I would also agree that that is something that should be 
not only looked at as a model, but a way of actually being able 
to help the cities make those investments along with the States 
in order to bring the efficiencies we need.
    I thank you for the opportunity to speak and send the 
greetings of the mayor to both of you.
    [The prepared statement of Mr. Gillison appears as a 
submission for the record.]
    Chairman Specter. Thank you, Deputy Mayor Gillison.
    We now turn to Professor John Goldkamp, professor and Chair 
of the Department of Criminal Justice at Temple University. In 
the 1990s, Dr. Goldkamp worked with judicial system leaders 
under the mayor's task force in Philadelphia. In the fall of 
2008, he was appointed by Governor Rendell to conduct a review 
of correctional and parole practices affecting violent crime by 
parolees. He has a Ph.D. from the School of Criminal Justice at 
SUNY Albany.
    Thank you for being with us, Dr. Goldkamp, and we look 
forward to your testimony.

STATEMENT OF JOHN S. GOLDKAMP, PROFESSOR, AND CHAIR, DEPARTMENT 
             OF CRIMINAL JUSTICE, TEMPLE UNIVERSITY

    Mr. Goldkamp. Good morning, Senator Specter and Senator 
Kaufman. Thank you very much for this opportunity to speak 
about the problems that we face in the Philadelphia courts and 
justice system.
    The search for constructive corrective measures for 
Philadelphia's justice process has implications not only for 
Philadelphia itself, but for other jurisdictions with similar 
problems, whether they happen to be receiving publicity or not. 
The problems faced by the Philadelphia justice system simply 
are not unique. Thus, from the outset, we can know that the 
lessons learned in other places may be instructive to the 
improvement of practices in Philadelphia, just as the 
strategies developed in Philadelphia may be helpful to the 
efforts of others seeking to devise similar solutions.
    Although the Inquirer series has pointed out a number of 
areas of system dysfunction, perhaps four highlight the 
greatest challenges to system improvement: the problem of 
dismissals, the problem of backlog and delay, the problem of 
jail crowding, and the problem of fugitives. Each of these is 
interrelated, and their interaction is an example of an 
instance when the overall negative effect of a problem is 
greater than the sum of its parts.
    These symptoms of dysfunction share in common that no one 
agency or system actor is responsible for any single one or all 
of these difficulties, and that no one agency or actor can fix 
the associated difficulties without cooperation and focused co-
problem-solving from the other agencies. And this is key to the 
adoption of strong corrective measures.
    For the purposes of brevity, I would like to focus in my 
comments on one of these problems--fugitives--because of the 
powerful undermining effect they have on the perception among 
victims, witnesses, the public, and even offenders, of the 
integrity of the judicial process.
    The message that one can just walk away produces a message 
of reverse deterrence in which defendants and their associated 
public are taught that there are no real consequences to 
defying the orders of the court and the requirements of the 
justice process. The fugitive problem has a variety of causes, 
but a solution involves two parts: developing a multi-part 
differentiated strategy for cleaning up and disposing of past 
cases, of the fugitive caseload; and preventing or reducing the 
rate of the production of fugitives prospectively. Fugitive 
prevention, quite simply, means strengthening the pretrial 
release and detention process under a comprehensive strategy.
    Now the two most critical elements of a fugitive prevention 
strategy involve re-examining and strengthening the pretrial 
release decisionmaking structure and developing and supporting 
more effective methods of pretrial release that both ensure 
community safety and attendance in court and restore the belief 
in consequences and respect for the judicial process.
    The pretrial release guidelines, which are judicially 
adopted policy in the First Judicial District in Philadelphia 
for more than a decade now, offer at least a useful framework 
and good foundation now for re-examining and strengthening the 
pretrial release decisionmaking process, and particularly 
targeting defendants according to risk of flight and crime and 
other appropriate criteria in considering the constitutional 
aims of pretrial release. Their neglect has played an important 
part in the size and the nature of the fugitive problem.
    Actually, it is the second part of this fugitive prevention 
strategy, the development and empirical testing of effective 
community management methods to ensure safe release and high 
levels of appearance in court, that has been most neglected. An 
especially critical need in preventing absconding fugitives is 
for effective non-financial release methods, conditions of 
release targeted to categories of defendants according to the 
risks of flight and threat of public safety they pose.
    The need to manage increasing numbers of defendants in the 
community in the coming future, not to mention probationers and 
parolees, should place this system need high on the list of 
public safety strategies of urgent need. I emphasize that the 
strengthening of targeted use of non-financial methods of 
supervision and management of defendants in the community 
should be given the highest priority because the dollar, the 
traditional currency of pretrial release in the U.S., has been 
shown in empirical studies to be a poor method for ensuring 
attendance at court and a still poorer means for protecting the 
community from potentially dangerous defendants. The role of 
the dollar in bail does allow defendants with financial 
resources on hand, such as drug dealers, prostitutes, and 
professional criminals, a simple way to purchase their 
freedom--a mere lost of doing business.
    The symptoms of dysfunction in the Philadelphia courts 
involve more than the problems posed by fugitives or by the 
other categories I have mentioned. Without question, it is 
indispensable to craft effective interventions and strategies 
both (a) in reference to current and accurate data relating to 
system performance, and (b) based on substantive collaboration 
of the relevant justice agencies and key actors. It is 
particularly helpful to test or at least anticipate the impact 
of potentially helpful policies empirically before full-scale 
adoption. Yet, in addition, a great deal can be learned from 
systematic review of initiatives or strategies that may have 
been adopted or tested in other jurisdictions facing similar 
challenges and any evidence in the literature about advantages 
and disadvantages of such measures.
    In the face of such crises as we seem to be experiencing in 
Philadelphia, there is extreme pressure to adopt ad hoc 
emergency measures that may or may not address the systemic 
problems and may produce unanticipated side effects that will 
exact costs to be paid later.
    I opened my comments by mentioning that the Philadelphia 
court system risks being held up nationally as an example of a 
dysfunctional court system, courts ``at their worst''. There is 
in these circumstances, however, an opportunity for 
Philadelphia to demonstrate the value of a rational, 
comprehensive, and evidence-based problem-solving method that 
can serve as an example to other jurisdictions whose challenges 
have yet to surface and who soon may as well be looking for 
solutions. I thank you.
    [The prepared statement of Mr. Goldkamp appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Dr. Goldkamp.
    We now turn to former district attorney of Philadelphia, 
Lynne Abraham, who has had really an extraordinary record. She 
was an assistant district attorney in my office--well, many 
years ago, let us put it that way.
    Ms. Abraham. Not that many.
    Chairman Specter. Not that many? OK. I will go for that, 
too. Really a strong prosecutor. I recall one day she went over 
the weekend and conducted a personal investigation in West 
Philadelphia. That is kind of tough to do under any 
circumstances, but she came back with the witnesses.
    She later served as executive director of the Philadelphia 
Redevelopment Authority, legislative consultant to the 
Philadelphia City Council, and then was on the municipal court 
for 4 years, Philadelphia Common Pleas Court for 11 years, and 
district attorney of Philadelphia for 19 years, and as 
indicated earlier, first woman to hold the position. She is now 
a partner in the prestigious law firm of Archer & Greiner here 
in the city.
    We welcome you here, D.A. Abraham, and look forward to your 
testimony.

STATEMENT OF LYNNE M. ABRAHAM, PARTNER, ARCHER & GREINER, P.C., 
                   PHILADELPHIA, PENNSYLVANIA

    Ms. Abraham. Thank you, Senator Specter and Senator 
Kaufman. I am delighted to be here today with my colleagues to 
talk about things that have been on our agenda for years.
    As I pointed out in my testimony--which needs a few little 
grammatical corrections, I regret to say; my fingers type 
faster than the computer--these problems and issues have been 
with us at least, Senator, since 1968. As a matter of fact, I 
quoted from your report to the people of 1968 verbatim in my 
notes. So there is nothing new under the sun, but they have 
become exacerbated and aggravated by a whole series of things, 
some of which I may cover in my first 5 minutes. But I am 
particularly irritated that many of these issues never would 
have come up if the city of Philadelphia had had the political 
will and the foresight to make needed changes when they became 
apparent.
    The witness relocation/protection issue has been with us 
since the early 1990s. Every year, from the first year I became 
district attorney, virtually, I appeared before our city 
council and almost begged for witness relocation money. We do 
not call it protection because we do not have the benefits of 
the Federal changing of identities. And every year, the city of 
Philadelphia failed and refused to put just a little bit of 
money toward the issue of witness relocation, a lot of hand 
wringing, a lot of, ``Oh, terrible thing,'' ``Isn't that 
awful?'' But no money.
    When you want to help witnesses appear in court, you need 
to have the resources to put them some place. It is not the 
only thing that we can do, but it is a glaring error.
    If the court system had agreed to implement zone courts, 
which I had advocated after having visited Brooklyn, New York, 
in 1992, we would have saved millions of dollars in police 
overtime. We would have salvaged many more cases. We would have 
been more efficient, and we would have done the justice system 
proud. And what that essentially does is break down the court 
system, to make sure those police officers, as Justice 
McCaffery--one of my law students when he was a police officer, 
I might add; that is how far we go back. He was running all 
over to various courtrooms because they were not listed on the 
basis of geography. In other words, if he was in the 18th 
District, in criminal court, all he would have to do is go to a 
couple of courts next door to each other, where every case that 
arose in his district would have been disposed of. He would not 
have had to run all over the court system.
    Now, there were some minor amendments that had to be made 
for juvenile court, which was at 1801 Vine, but the criminal 
court is in City Hall, and preliminary hearings could have been 
easily addressed by zone courts, everything done by geography, 
line prosecution, and efficiency. But the judges consistently 
decided that they were not going to do this just for one 
reason. They were afraid that their record and their names 
would be known by the public, and this was something that they 
wanted to avoid at all costs.
    Failure of bail reform has been an issue that I have 
written to the mayors of Philadelphia--Rendell, Street, and 
Goode--sorry. Well, Rendell, Street, Goode was coming out as I 
was going in--and, of course, Mayor Nutter. The failure of bail 
reform also is a function of lack of political will. Everybody 
knew--everybody at this table who was in the criminal justice 
system, whether as a police officer or a defender or a 
prosecutor, knew that the bail system was a disaster, first 
started off by Wilson Goode when he agreed to a prison cap 
without any finding first that the prison conditions were 
inhumane or unconstitutional. And Professor Goldkamp and I 
worked on lots of things about bail. I have his letters here, 
by the way, from 1992 on the issue of bail and dealing with 
prisoners.
    Mr. Goldkamp. I interviewed you in 1976.
    Ms. Abraham. Well, I have been around a long time.
    So I can tell you that these problems are endemic. So I 
think efficiency in the court is not a good thing. I think just 
doing justice by numbers and statistics is never to be accepted 
as a substitute for a good system. But let me bring out in the 
few minutes that I have left some of the things that I need to 
bring out that others have not.
    Our jurors fail to appear at astounding rates. Sometimes as 
many as 50 percent of subpoenaed jurors never show up for jury 
duty. The fact that we have a Hobbs Act Task Force and Federal 
alternatives to State crimes, which have been in existence 
since you and I first dealt with that back in the early 1990s, 
is an indication that our judges are not taking crime seriously 
and not sentencing them to appropriate State prisons, but 
instead are clogging up the local--State prisons, but instead 
are clogging up our local prisons.
    Our probation and parole officers have been decimated by 
these devastating cuts. Targeted social services and adequate 
oversight--can you turn that off, please?--probation and parole 
officers is really key to the end of recidivism and making sure 
that people get job training, services, mental health 
treatment, and the like.
    Electric home monitoring and GPS systems, now that they are 
apparently--and I say ``apparently''--tamper proof, are a great 
way to make sure that a defendant is known where he is at any 
given moment. It does not necessarily prevent a defendant from 
committing a crime. You can deal drugs with an electric home 
monitor, you can sexually assault women with electric home 
monitoring, you can commit crimes while you are on electric 
home monitoring, as long as you are in the geographic area that 
you are restricted to. But it does at least give a sense of 
where the probationer or parolee is without losing him.
    We have lost many, many, many cases because we have, I 
think, been inundated by the impact of electronics on our court 
system--Tweeting, Facebook, all those electronic gizmos that 
are now going to infect our court system. You know, there are 
judges in New Jersey who make their jurors sign pledges every 
day that they will not Tweet, Facebook, look up lawyers' 
records, find out who the judge is, find out who is paying 
taxes, do their own investigations. I think that the electronic 
era as an influence on our courts to the detriment is something 
that really needs a tremendous amount of attention.
    I also recommended changing the treaty with Mexico. We have 
many, many defendants who come from and flee to Mexico, as well 
as huge amounts of drugs coming back over our borders from 
Mexico, and guns and money going south. This narcoterrorism 
really needs to take a second look, and I recommended as one of 
the things that you may wish to look at from the Federal level, 
changes in the treaty with Mexico to reflect modern realities.
    Another issue is that our prisons have become the 
residential mental health treatment facility of choice. I have 
to tell you, I know that you respected Judge Broderick, as I 
did. He was a great friend. Ray and Marjorie Broderick were 
friends of mine. I never agreed with him and still do not agree 
with his shutting down of mental hospitals in favor of an 
absolute prohibition on admission to mental hospitals, because 
it did not take into effect modern realities. And I will just 
end with this----
    Chairman Specter. D.A. Abraham, I have asked other 
witnesses how much more time they would need.
    Ms. Abraham. Just one more minute. Just one more minute.
    Chairman Specter. OK.
    Ms. Abraham. Maybe even less.
    Chairman Specter. Fine.
    Ms. Abraham. I think that the fact that we are using our 
prisons as mental hospitals is a terrible disservice to our 
prisoners, the mental health system, and the prisons.
    And, finally, I agree that I think that one of the things--
well, most of these things that we are talking about today are 
local, and these are going to have to be solved locally. But 
one of the things, in addition to some of the things you and 
Senator Kaufman have already mentioned that you can do, is I 
believe that cameras almost everywhere are a great deterrent to 
crime and a great solution to criminal conduct. And you need to 
look at just two major cases:
    One, the Oklahoma City bombing case, where cameras really 
helped to solve the case dramatically, quickly, and also to an 
appropriate ending.
    But, more importantly, this past weekend in New York in 
Times Square. This case may be one of the most horrific cases 
that could have happened, but fortunately did not. But cameras 
are helping, and I believe that we need to do more with having 
cameras on the street all over the place to make sure that the 
public is safe and that criminals have less of a chance to be 
predators.
    [The prepared statement of Ms. Abraham appears as a 
submission for the record.]
    Chairman Specter. D.A. Abraham, when Ms. Linda Hoffman of 
my staff had talked to you extensively about the series in the 
Inquirer. You had wanted to state your side of it, and I would 
like to give you some more time now. A summary of the 
conclusions of the Inquirer series related to dismissals of so 
many people, the low conviction rate, the low guilty rate on 
gun assault cases. And I know you have reviewed those 
statistics in some detail.
    Ms. Abraham. Oh, I have.
    Chairman Specter. And I think that it would be appropriate 
and fair to give you an opportunity in this forum to comment, 
if you care to do so.
    Ms. Abraham. Oh, no, I do. As a matter of fact, it is in my 
recorded notes, but not perhaps as extensively as I might 
because, you know, how much time does one have to discuss 
weighty issues? But I thought that and I think that the 
Inquirer series missed----
    Chairman Specter. We ought to run the clock, timekeeper.
    Ms. Abraham. I think the Inquirer series did some good, and 
I gave them kudos where they deserved it. Where they do not 
deserve kudos, I also said so, and one of the issues was with 
regard to convictions. Because, as we pointed out to the 
Philadelphia Inquirer reporters, when they provided us finally 
with the information, they were comparing other places where 
felonies were 1 year with our felonies which are 5 years. And 
as a matter of fact, Mr. Gillison and Ms. Greenlee and I--well, 
I know Ms. Greenlee spoke out about it. We both agree that the 
Inquirer series did a tremendous disservice.
    So what they were doing was they were comparing a Bureau of 
Justice Statistics result from an old study with what we do in 
our courts, and we proved to them using their own figures that 
actually our conviction rate is about 85 percent overall.
    Now, I must say this, Senator. I never did justice by 
numbers. I never was interested in keeping statistics on wins 
or losses. I was only interested in an individual case doing 
justice for the victim, for the accused, and for the system. 
But since we had to deal with numbers--and we do--on the basis 
of what we have been able to get from the courts and the police 
Department, our conviction rate is very high. Really where the 
problem is is in our municipal court, not in the courts of 
common pleas. The courts of common pleas have no backlog, and 
they have been handling cases appropriately. But in our 
municipal court, as I pointed out in my written testimony, we 
had judges who were interested in blowing out cases, according 
to Tom Ferrick of the Inquirer in his own article, because they 
were interested in making sure that they had the final word on 
what we should be doing as prosecutors. In other words, did we 
really overcharge? Which we never did, or almost never did. But 
what they did was they put us to the proof. First of all, they 
called the case early, so if a police officer was in another 
room, they blew out the case. If the witness was on his way, 
they did not want to wait; dismissal of the case. And this is 
because judges were interested in productivity, not justice. 
They had their own way of making us prove our case at a 
preliminary hearing beyond a reasonable doubt instead of just 
prima facie. You can get through 30 cases if all you have to do 
is prove ownership, non-permission, and that the defendant was 
in possession of something that the victim identified as his. 
But the courts would not accept the rules of evidence on 
hearsay. They had their own rules that they made up. Three 
strikes and you are out. If you could not get your case on in 
three appearances, even if it was in the time limit you had to 
try the case or bring the case, they dismissed it. That is 
productivity, but it is not justice.
    The rules of when we could bring cases were also unfairly 
skewed, both to the defense and the prosecution--3 to 10 days 
within the day of arrest. This has been changed, I am about--I 
think I am about to say prospectively, that now it will be at 
least 10 or 20 days after an arrest to have a case held at a 
preliminary hearing, because nobody can be ready. Discovery was 
never ready, and the defense always insisted on discovery, even 
to the weight of the drugs when it was not necessary for a 
preliminary hearing. More delay, more cases dismissed, and, of 
course, witness intimidation.
    And I must say, sort of counter to what Justice McCaffery 
said, citizens of Philadelphia from outlying areas do not like 
to come into center city Philadelphia. They have a skewed 
version of what happens in the city of Philadelphia. People 
really want to be out in their own neighborhoods for their own 
preliminary hearings, so one of the reasons why the 
centralization of preliminary hearings at the criminal justice 
system did not work was because people did not want to come 
into town, they could not afford to come into town, they did 
not have the time to come into town. So between intimidation, 
transportation, baby-sitting, and other issues, they just 
failed to show up. And, of course, witness intimidation is a 
huge issue, the ``stop snitching'' culture, the ``do not 
snitch'' is just infecting our criminal justice system.
    I think there are common-sense ways where, for example, 
people on the CJAB, which I was a member of before I left 
office, are coming to grips with some of these issues, and I 
think that will be a very salutary way.
    The Inquirer series did some things that were good. They 
got the quarter sessions clerk to resign. The Supreme Court has 
taken over the bail function, as it properly should. If we can 
get the bail situation as a system under control, we will go a 
lot farther in making sure we have fewer fugitives, a better 
bail system, a not-overcrowded jail system, and if we can 
especially get our mental health defendants out of our prison 
system, which are about a third of the population, and into 
appropriate treatment, properly funded, we will be going a long 
way.
    Chairman Specter. Well, thank you, D.A. Abraham, for those 
comments. You noted that the Philadelphia Inquirer series was 
very helpful in getting the changes in the clerk of quarter 
sessions, and now there are proposals for legislation so that 
the modernization of that unit is now possible, 
computerization, et cetera, et cetera.
    Ms. Abraham. You are talking about the clerk's office?
    Chairman Specter. The clerk of quarter sessions.
    Ms. Abraham. Yes, but, you see, here is what is wrong with 
this, Senator. This is not disrespectful to the Inquirer. This 
is something that I was writing Mayor Rendell about in 1998. It 
did not have to take these multiple stories, my multiple 
testimonies before city council to get this done. This should 
have been done. It was a lack of political will that would not 
get it done. The mayor did not want to do anything, council did 
not want to do anything, and, of course, as an elected 
official, I can understand that.
    Chairman Specter. Well, D.A. Abraham, your letter to Mayor 
Rendell was not as heavily publicized as the Inquirer series.
    Ms. Abraham. Absolutely. But that is not the problem. I 
agree that the paper printed my letter, and I gave them the 
kudos they deserve. But that is not it. I am happy that the 
Inquirer is getting the discussion going, but it was 
unnecessary if we had the political will back in 1997 and 1996 
and 1995 to make the changes that we need. That is all.
    Chairman Specter. You made a comment a few moments ago that 
the Inquirer performed a disservice. Would you say overall that 
the Inquirer series has been helpful in focusing--let me finish 
the question--in focusing public attention on the issue and 
motivating the Supreme Court to get into the picture and 
motivating the State Senate to have the hearings and calling it 
to the attention so that my colleagues in Washington are 
willing to authorize hearings by the Criminal Justice 
Subcommittee? Overall, wouldn't you say that it is useful to 
have that focus, that your point--and this is just one aspect--
in writing to the mayor and saying let us deal with the clerk 
of quarter sessions does not get a whole lot of attention, may 
not even be read? But the Inquirer buys ink by the barrel, as 
the old expression goes.
    So how would you evaluate the value of the Inquirer series 
overall?
    Ms. Abraham. I think that if you are getting you and 
Senator Kaufman and other Senators and Congressmen in on this 
issue, this is nothing but good. Nothing but good can come of 
these hearings. I would not be here; you would not be here; all 
these panels would not be here; and changes in the court system 
would not have come about.
    The pity is that these are all stories that have been 
written about for years, and nobody was willing to change 
anything.
    Chairman Specter. Well, I think you are right that it has 
been a motivating factor to get people to do things which, as 
you say, the clerk of quarter sessions could have ended a long 
time ago.
    Let me ask my colleague's opinion on that because I think 
it is a key point, if you would care to comment, Senator 
Kaufman.
    Senator Kaufman. Yes, well, I do not read the Inquirer 
regularly. I read the Wilmington News Journal. But I do think 
this is a problem. It is not just here in Philadelphia. I know 
wherever I go this is a problem and many of the same kinds of 
problems. You can literally take a laundry list. And I think 
Professor Goldkamp is right. I hate, you know, reinventing the 
wheel. I hate being the person that has to--I mean, I guarantee 
you there are places around this country where you can go--and 
we have done it, and we have done it on the Criminal Justice 
Subcommittee of the Judiciary Committee and brought in best 
practices and brought in things that worked everywhere. And 
Senator Specter has been one of the leaders in that, and my 
former boss, Senator Biden, when he was Chairman of the 
Committee, was a leader on that.
    But it is one of the things in our time, and it is not--you 
know, it is like criticizing the weather. You know, more and 
more, media is playing an important part in setting the agenda 
for what we do. And I think that what the Inquirer has done 
with this series, which laid out, again, a problem that 
everybody sitting at this table and anyone who has been 
involved in the system--I mean, I would say without a shadow of 
a doubt, if we got your predecessors for the last 25 years, sat 
them down in a room, just as Lynne Abraham is saying, there is 
nothing new under the sun. But I tell you, I am going to be 
doing this--I leave in November, and sitting here listening to 
this and having listened to it so many times in the past for so 
long--now, the ``no snitch'' thing is new, but the 
digitalization and modernization of the computer system, the 
LEAP program, which was a great program, the discontinuing of 
the revenue sharing that went to help the justice system, the 
problems of the indigent not getting what they deserve, the 
problems of people just walking in and out of the justice 
system like a revolving door--it is scary, because I really 
think we are reaching a point where these things--we have let 
this grow and grow and grow, and I could not agree with you 
more. No money at a local level for prosecutors, for defenders, 
for modernization, for courts, for the things around the 
courts. I mean, this is just--it is very scary to me, because I 
have just heard it for so long. And I just hope--and I think 
that is the main point the Chairman wants to make, is we have 
got to deal with these things. We absolutely have to deal with 
them. It is going to eat us alive.
    And so the idea that the Inquirer did a series on this is a 
good thing, and I am very sympathetic to Lynne Abraham because 
having watched these series develop, sometimes they--you know, 
to make a point, they stretch things. But I think the fact that 
they did this series is very, very important, and the fact that 
we are sitting here is very important.
    I want to tell you, time is running out. We cannot do this 
again. We cannot come back here 10 years from now--I really 
believe it from the bottom of my being. We cannot come back 10 
years from now and do this again. We have got to do some things 
about what has been raised by the panel, things we have to do 
in order to do the things that everybody agrees have to be 
done.
    Chairman Specter. Thank you, Senator Kaufman.
    We will now go to 10-minute rounds of questioning, and I 
will lead.
    A theme which has been mentioned repeatedly has been 
funding, a request for the old LEAA, Law Enforcement Assistance 
Administration, revenue sharing. Senator Dole made a famous 
comment when revenue sharing ended. He said, ``There is no more 
revenue to share.'' We have had the stimulus package, the 
Recovery Act, $878 billion, in Pennsylvania $16 billion paying 
for unemployment compensation now and Medicaid.
    There was a lawsuit filed, Commonwealth of Pennsylvania, 
District Attorney Arlen Specter, in 1973, against Ralph Dennis. 
He was a magistrate. You remember him, Justice McCaffery. 
Magistrate courts were eliminated in the 1969 Constitution 
after the magisterial investigation, which I ran in 1964, and 
sought a writ of mandamus to require judges to remain on duty 
for 8 hours. We used to have trouble taking the judge's word. 
And it was dismissed; no clear right to the relief requested 
was the conclusion.
    There have been mandamus actions brought to compel public 
funding, and the Supreme Court of the United States upheld the 
authority of the court to mandamus funding for education in 
Kansas City, Missouri, which surprised me in that the 
responsibility of taxing has been traditionally legislative, 
really loosely legislative.
    But what do you think? I will turn to you first, Ms. 
Greenlee. You have a question about the adequacy of equality in 
the justice system, no doubt about that problem. It is sort of 
unthinkable that it was not until 1963 in Gideon v. Wainwright 
that there was a constitutional right to have a lawyer. If you 
are haled into court, Justice Black said you have a right to a 
lawyer. Before that, there was a right to a lawyer in a 
homicide case, charged with murder. Betts v. Brady gave us 
that.
    Would you go so far as to mandamus the legislature, the 
city council, the Commonwealth? You said the General Assembly 
has ignored the mandamus order in the past. Before taking up 
how they got away with it, which I will ask you about, should 
we resort to that, compelling the legislative bodies to 
appropriate funds?
    Ms. Greenlee. If there is actually a way to do it, I think 
it is not a bad idea. I am really focused on Pennsylvania, 
although this is a national problem, and you see systems 
breaking down in Michigan and other States--Louisiana--
throughout the country. There is not sufficient funding for 
indigent defense.
    In Pennsylvania, though, the system is really, really in 
crisis because it is a county-funded system, and the counties 
really simply cannot afford to pay for the criminal justice 
system with the increase in what they have to handle.
    Chairman Specter. How did the General Assembly avoid 
complying with the court order, which you referred to earlier?
    Ms. Greenlee. Beats me. I think they just simply ignored it 
all these years. They simply ignored it and----
    Chairman Specter. Was there an application for a contempt 
citation? The court has the power to hold people in contempt 
who do not follow the judicial orders.
    Ms. Greenlee. I am not aware of that. I do not know whether 
Justice McCaffery knows anything about it. I am not aware of 
anything recent where the court, in effect, ordered the 
legislature, other than 1985--I think it did come up since, but 
there has been no----
    Ms. Abraham. They did. They did.
    Ms. Greenlee. Yes. There has been no action by the 
legislature.
    Chairman Specter. Mr. Justice McCaffery, I am not going to 
ask you a question about that subject, but if you care to 
comment, I would be interested. I do not want to trespass on 
judicial prerogatives.
    Justice McCaffery. Senator, obviously I cannot comment on 
the case that is currently pending in front of our court 
dealing just with this very topic. As I am sure you are well 
aware, years ago when it first came up in the Allegheny County 
case, former Justice Matamura was tasked by the Supreme Court 
to come up with, if you will, a game plan for the assimilation 
of the county courts into the Administrative Office of 
Pennsylvania Courts. That did, in fact, start with the 
administrative officers and deputy court administrators. That 
was implemented. It was stalled, again, because of lack of 
funding. But to answer the question, there has not been any 
mandamus, and the court has been, quite frankly, trying to work 
with the legislature, but this year alone Chief Justice 
Castille was really handed a huge setback with a $31 million 
shortfall in the court budget. We are looking at a legislature 
now, Senator, that creates new judgeships, but yet fails to 
fund them. They create new programs, but they fail to fund 
them. And right now the new thing, if you will, are the 
problem-solving courts where I have taken a leading role. But 
as we keep pointing out, we are taking the judges and the court 
staff out of hide, and we are not getting new judges, we are 
not getting new staff personnel, nor can we open up new rooms 
because our friends in the Defenders Association and the 
district attorney, they do not have enough personnel to fund 
it.
    One of the things that we are looking at now, Senator, is 
all of the things that the courts are doing--and we are doing a 
lot. A lot of things have been implemented since the Inquirer 
articles. And, by the way, no disrespect to our former district 
attorney, but just real fast on that topic, you know, remember, 
in 1978 there was a huge study done on the municipal court, and 
it became what is known as shelf art. Nothing ever happened 
with it. We have seen so many times, myself included, where we 
are asking for a change, asking for help, and nothing happened. 
But it was not until the Inquirer article came out that we are 
now doing things, and the Supreme Court is now implementing 
them. The Supreme Court is taking the action. But for--and just 
so you know, Senator, that very first day it came out, I went 
out and bought out every single Sunday Inquirer at the local 
Wawa and sent it to my colleagues all over Pennsylvania--in 
Pittsburgh, Dauphin County, Cumberland County--so they could 
see firsthand. So that article, that series of articles, helped 
us.
    Chairman Specter. You say the series of Inquirer articles 
has helped the issue by bringing it to the public forum?
    Justice McCaffery. Significantly. Whether or not you agree 
or disagree with the substance of the articles, but for that 
series of articles, the entire Supreme Court has now been 
motivated to make the necessary changes, and we are 
aggressively pursuing it with all parties involved--defense, 
prosecution, courts, prisons, bail. All issues will be 
addressed. We have also brought in outside consultants who are 
going to prepare a full report, and our Supreme Court is 
committed to implementing the changes, and not only as we go 
along but----
    Chairman Specter. Let me turn to the city representative on 
the issue of funding. Right now, President Obama has appointed 
a commission to evaluate the entire funding issue nationally, 
the issue of revenues, the issue of entitlements. There is no 
doubt that--talk about a crisis. The country is in a crisis 
with the deficit that we have and the national debt in excess 
of $12 trillion. May the record show the D.A. shaking her head 
in the affirmative. And we really have to deal with the deficit 
and the national debt.
    But how would you respond, as the mayor's representative, 
Deputy Mayor Gillison, with the issue of funding? What more can 
the city do?
    Mr. Gillison. Well, I think that the city is obviously 
handcuffed by the fact that the revenues that we have lost over 
the last 2 years put us in the position where we are trying to 
seek efficiencies everywhere. We have actually gone to 
Washington--the budget director and the finance director here, 
Rob Dubow and Steve Agostini have gone to Washington, have 
discussed with the administration there that the TARP funding 
and the way that the country rallied in order to save the 
banking institutions, we are saying that we should be saving 
cities that are--where the rubber hits the road, and to be able 
to use some of the monies that have been repaid under the TARP 
funding to help cities basically get themselves out and 
reallocated those dollars.
    I can tell you that----
    Chairman Specter. Absent Federal funding, Deputy Mayor 
Gillison, what can the city do?
    Mr. Gillison. The city can only beg, borrow, and basically 
borrow some more.
    Chairman Specter. Beg, borrow . . . there was one 
additional comment.
    Mr. Gillison. I did not get to the last one because we 
cannot do that. But we are begging at the State level. We have 
been taxing ourselves trying to get down. We have been cutting. 
And criminal justice is one area where we took our first cut, 
and I have been saying that at this point we cannot cut any 
more because basically at this point all we would be cutting is 
bodies.
    I cannot lay off police officers, really. I cannot lay off 
firefighters, really. I cannot go into the prisons where we 
have now prisons that are going on and lay those folks off. 
And----
    Chairman Specter. Before my time expires, I want to come to 
Professor Goldkamp on a two-part question. You have a nice 
phrase, Professor Goldkamp, ``reverse deterrence.'' I had not 
heard deterrence used exactly that way in reverse. But the two-
part question is: With respect to the so-called three strike 
rule and the dismissal of cases, I would like your comment on 
whether that can stand up, should stand up? And the second part 
is about the use of hearsay in preliminary hearings. We all 
know that hearsay is used in Federal grand juries. Would you 
think it appropriate to have hearsay in preliminary hearings so 
the police officer can testify from the report and establish a 
prima facie case?
    Mr. Goldkamp. Well, we can get back to reverse deterrence, 
and I would like to be cautious about commenting on small 
pieces of strategies that we hear are emerging without 
knowledge of the full approach.
    I agree that the problem of dismissals is a huge one, but 
it also has been a traditional one. In fact, this is a terrific 
example of a problem that exists in every jurisdiction and has 
been documented as a major concern since the 1920s, if not 
before. When you look at some of the commission reports from 
the 1920s and 1930s that were done, dismissals were one of the 
biggest issues involved. A principal cause of large numbers of 
dismissals is found at the charging stage and that function has 
a lot to do with the quality of cases that are sent forward 
into the court system. Weak cases do not survive the 
preliminary hearing stage. This can happen sometimes as a 
result of law enforcement initiatives, for example, when the 
system has to handle sweeps that produce large volumes of 
arrests. All of the resulting arrests are not the strongest 
cases. Often making strong cases is not the point of the law 
enforcement actions.
    When it comes to ad hoc fixes such as hearsay and the three 
strikes, I certainly do share the system's impatience with 
difficulties experienced by both sides, including witnesses and 
victims, and defendants not showing up. However, I worry about 
the ``downstream'' side-effects of such short sighted measures: 
Are we making bigger problems in the long-run by putting off 
systemic changes today? Some of the causes of these problems 
have to do with this culture of alienation which we experience 
in Philadelphia. A real good start--with steps by DA Williams 
underway--is to review the charging function and to strengthen 
that. And if cases arrive in better shape, you will not see 
dismissals at the rate that we have been seeing them recently.
    But I would step aside from discussing things that are 
being worked on without knowledge of the overall plan and 
proposals that are only being heard about piece by piece. I 
would like to get back to your question about the Inquirer and 
whether its coverage was worthwhile or not.
    I think that opportunity comes in a time of crisis. Since I 
have been around here--and it has been a very long time--we get 
things done usually because of litigation or some other kind of 
crisis when all of a sudden we have to all get together and 
look at everything and come up with some good corrective ideas.
    In the current environment what I am concerned about, 
however, is making the mistake of producing ad hoc emergency 
measures that then do not go away or do not get adjusted later 
when the din dies down. We have some such measures still in 
effect from the days of the 1990s that need to be re-examined, 
as plenty of things do right now.
    Chairman Specter. So you mentioned whether the Inquirer 
series was worthwhile. What is your bottom line?
    Mr. Goldkamp. I think it was very worthwhile not 
necessarily because of its accuracy in all areas, but because 
of the scope of issues that the series raised. They are 
important issues. I think the issues and discussions of 
dismissals, fugitives particularly, backlog, and crowding. I 
know there are those that think we have cured jail crowding in 
Philadelphia. I advise that we take advantage of the little 
breathing space that we have regarding jail crowding, to put 
reforms in place before the next tidal wave engulfs us one 
more.
    So the inquirer has pinpointed and made very public some of 
our most difficult challenges. Court systems are among the 
least funded and most overlooked function in the justice arena, 
if you take the court system to mean a broad collection of 
various functions and agencies. Everybody just expects them to 
work--with or without sufficient resources. Everyone expects 
them to accept whatever business shows up at their doorstep, 
and yet criticizes them when, all of a sudden, we have 
difficulties because we cannot staff the things that we need to 
staff to make the system function effectively. Well, that's 
where we are.
    Chairman Specter. Thank you, Professor Goldkamp.
    Senator Kaufman.
    Senator Kaufman. Yes, first off, on hearsay, the evidence 
is that it works very well in Delaware, having hearsay in 
preliminary hearings. And I really do believe going around and 
checking with other folks and seeing what works is very 
effective, so I would recommend that. And deficits, I discussed 
in a minute, Senator Specter and I both really, really, really 
care about the deficits. But we are not going to solve the 
deficit. If we eliminated all non-defense discretionary 
spending, which is about $500 billion, it would not solve a 
$1.4 trillion deficit.
    So there is a lot of stuff going on in Washington talking 
about we are going to eliminate this program--if we eliminated 
all the criminal justice programs, if we eliminated the Coast 
Guard, if we eliminated the highway fund, if we eliminated all 
those things, that is not going to solve the problem. We have 
to do something about, as the Chairman spoke about, we have got 
to do something about entitlements--Medicare, Medicaid, and 
Social Security. We have to do something, figure out where the 
money is, defense.
    And I will tell you what has been the biggest growing thing 
in the deficit is interest on the debt, which interest rates 
are low now, it is going to go through the roof. So we need a 
major decision on this. I think we have to watch every penny we 
spend. But this is a crisis, and this is a national security 
crisis. And I think that at some point we are going to have to 
get into it.
    So what I would like to do, every one of you has spoken a 
little bit about what you would like the Federal Government to 
get involved in terms of money. What I would like to do is talk 
about the budget and then be thinking about some non-budget 
things, as Ms. Abraham said about a treaty with Mexico.
    So, Justice McCaffery, you talked about the LEA Program, a 
new criminal justice program. What would be the very, very high 
priority things you would like to see in that?
    Justice McCaffery. Quite frankly, I would like to see some 
statutory help requiring the proper funding in every State for 
the court systems. I think that that is something that 
obviously the U.S. Supreme Court has looked at, and I agree 
with that, because, quite frankly, the judiciary--even though 
we are a co-equal branch of Government, we are treated as a 
subsidiary, and we are the ones that go hat in hand at the end 
of the day to the budgetary process where our Chief Justice has 
to walk into our friends in the legislature, after they have 
already, you know, made up their mind on the budget, and then 
we get, by the way, less than 1 percent of the State budget. 
Less than 1 percent. And I think that it would be only right if 
the Federal Government could step up to the plate and mandate 
reasonable funding for all criminal justice partners in every 
State, because then it would eliminate the requirement for us 
to politicize ourselves by walking in and almost begging for 
financial support.
    Senator Kaufman. Yes, one of the problems we have, I think 
it is--and it is not a problem--it really is a problem, and 
that is, unfunded mandates. I mean, I think it is very 
difficult to get--and the Chairman can comment--I think it is 
very difficult these days to get something through the Congress 
that is an unfunded mandate where you mandate that the States 
have to do something but you do not put the money in it to pay 
for it.
    Justice McCaffery. Senator, I have spoken to other Justices 
from other States, and they have in their States--Ohio is an 
example. If the legislature creates a judgeship, it must be 
funded.
    Senator Kaufman. Right.
    Justice McCaffery. Pennsylvania just created 11 new common 
pleas judges--11 new, not filling old, 11 new. That is $1 
million apiece. That is $11 million that we do not have.
    Senator Kaufman. Is there anything else that you--in terms 
of anything else the Federal Government should be doing that 
you----
    Justice McCaffery. I really think that if we could look 
back on the LEAP program, really, the Criminal Justice 
Assistance Program would go a long way to help all of our--
especially our urban areas because, remember, even though it is 
Philadelphia, it is regional. It is Bucks, Montgomery, South 
Jersey.
    Senator Kaufman. It is Delaware.
    Justice McCaffery. Exactly. It is a regional issue, and we 
really need to look at--one-third of our defendants in the 
criminal justice system in Philadelphia were not from 
Philadelphia.
    Senator Kaufman. Mr. Gillison, you talked eloquently about 
the need for digitalization and things. What would be the top 
priority if, in fact----
    Mr. Gillison. There are two, and technology is at the root 
of both. Obviously, digitalization, technology improvements. I 
know the Federal Government likes to invest in things that it 
can not only touch but see and see the effect.
    The other thing is that we have to start really talking 
about an interconnected way of dealing with how you advise 
people on their rights.
    One of the things that you have to be sensitive to is what 
Ms. Abraham was talking about when she said that the mental 
health situation in the prisons is because there is no funding 
in the mental health courts--or the mental health situations 
outside of the prisons, so they are becoming the de facto 
place.
    So we have the mental health situation impacting on prisons 
where prisons have really not guide--you know, they're to be 
there. So I would end up looking at how do we end up 
interconnecting those particular agencies--mental health, the 
prisons, and be able to use release of information forms so 
people's rights are protected, but if you happen to be in a 
prison, if you happen to be there, you can still get what you 
need and funding for it that goes with it. So that the place 
that you get the treatment should actually--the money should 
actually follow the person rather than just artificially saying 
that because I am not in an outpatient facility I cannot access 
certain dollars. If you are inside and you are getting help, 
why should your dollars be cut off?
    So that is something that the Federal Government actually 
has and stands in the way right now, and if we could get that 
kind of cooperation, I think that would help us as well.
    Senator Kaufman. Ms. Greenlee, do you want to give a little 
bit of the indigent problem, what the Federal Government should 
do in indigent defense?
    Ms. Greenlee. Well, I think the main thing for me would be 
to have parity of resources between prosecution and defense. I 
think that is the main issue. For instance, in the area of 
digital technology, we have for years tried to get funding for 
our computers to get up to speed, to be able to have electronic 
files. We are still in the paper stage in terms of our files, 
passing files around. We have been turned down by the 
Pennsylvania Commission on Crime and Delinquency and actually 
turned down by the city of Philadelphia repeatedly in the last 
20 years.
    So I think that raises that issue of parity of resources, 
and I think also to give some life to the idea of loan 
forgiveness for people who are serving in public interest jobs 
would encourage people to be able to work in our jobs. We ask 
our young lawyers for a commitment of 3 years, and it is really 
a struggle for them, with the loans that they bring with them, 
to be able to do this job. So I would lump it under the issue 
of parity of resources both for prosecution and for defense.
    Senator Kaufman. Mr. Goldkamp, you talked about fugitives, 
but I have a feeling there are some other areas of interest 
that you might have where the Federal Government should be 
involved.
    Mr. Goldkamp. Sure. I would say two areas. First, the 
courts--and the whole justice system but principally the 
courts--have become the social service institution of last 
resort, and I have had lots to do and been involved in the 
development of what you call special courts over the years. 
They all start with little grants, and then you walk off, and 
you say, Do a good job and go get a big target population and 
make a difference, but funds are out because you have used your 
three things and that is all you get. And now the courts are 
stuck with all sorts of different kinds of very good special 
courts, but talk about an unfunded mandate. So I think that is 
an issue.
    But here is the big one that is very broad, and it is the 
wave of the future. We are going to be managing larger numbers 
of defendants and offenders in the community. There is no help 
for it. Parolees, probationers, and defendants. We lack hard-
nosed methods that have been tested, tried and true. The 
district attorney has mentioned a few of those, but there are a 
whole variety of kinds of things that we need. So we better 
learn pretty soon how to manage safely--and this does take 
resources because it involves public safety, people in the 
community, appropriately. And that is--I would say that 
fugitives, however, we do not even know how to measure 
fugitives. When we think of the problem of fugitives, in 
Philadelphia, we have peeked under the skirt of fugitives. It 
is a secret thing, and all sorts of other places. It is 
something that is not known in the country. We need to learn 
how to measure that.
    And, finally, I would say there is one thing--and I agree 
with the district attorney on this--that is not about funding, 
and that is political will. And often we substitute crisis for 
political will to make change that we already know needs to 
occur. So if you could give us a little political will, I think 
we would all greatly benefit. Thank you.
    [Laughter.]
    Senator Kaufman. I am not even going to touch that.
    Ms. Abraham.
    Ms. Abraham. Well, could I speak to it and then I will--I 
am always in an alternative universe, so let me bring up some 
things that have not yet been touched upon.
    Obviously, with all the hoo-ha about the Arizona law that 
recently passed, we are forgetting that one of the most 
important issues facing the criminal justice system is how do 
we protect our borders from a national security point of view, 
but also immigrants who are here illegally. I do not care what 
you call them--undocumented. They are not here lawfully. They 
are illegal immigrants. How do we handle the issue of criminal 
justice issues with illegal immigrants? Never mind the--and the 
language barrier and the cultural barriers and everything else.
    I think that part of our criminal justice system of things 
that do not directly impact us locally--and I will get to a 
couple local things in a minute, but human body parts, a 
cadaver, illegal use of cadavers and transportation into this 
country, that is a huge issue.
    Obviously, narcoterrorism has involved a tremendous amount 
of the Senate and the House's time and the President's time, 
which I, of course, support.
    Another great issue coming along that is going to hit us in 
ways that we do not even contemplate are the massive computer 
hacking issues that come from countries that not even the 
Federal Government can handle, from China to Nigeria, to 
Australia, to wherever it is, the massive computer hacking that 
violates not only our national security and imperils our very 
safety, but also because its global scale has direct relation 
to criminal conduct, whether it is identity theft, fake 
passports, invasion of our privacy, whatever that means under 
today's lack of privacy, credit card frauds, house stealing--
you know, all kinds of fake documents including what is getting 
to be our national identity card, our driver's license.
    Human trafficking of both adults and children is an 
unbelievable issue, and for us, probably more locally than 
globally, scientific enhancements.
    You know, I remember that prosecutors used to go crazy when 
they first started to talk about DNA. And then we discovered 
that it was probably one of the best things to happen. DNA 
helps prosecutors. Now we are faced with the National Science 
Academy, NSA, coming up with all kinds of new scientific 
gizmos. If you think that the issues that Justice McCaffery and 
Everett and Ellen and John and I have been talking about are 
big, wait until we get hit with all this new kind of scientific 
stuff that is going to be required, not only that our labs be, 
let us say, ASCLD certified, but how are we going to be 
handling all this super-scientific stuff that nobody has the 
capacity to buy or learn or do, but which are going to be 
imposed upon us by the courts because that is the wave of the 
future?
    It is sort of like the prison cap in reverse. The Prison 
Litigation Reform Act, which I lobbied for and my office helped 
to write, was great. It stopped judges from imposing prison 
caps. So what do the judges do? Now they started to change it. 
No more prison caps. We are going to change the conditions of 
imprisonment. We are going to insist that the prisons put this 
kind of program in, without a concern for what the cost, the 
human cost is. Ask Justice McCaffery. He is laughing over 
there.
    I think that there are so many things that are going to be 
driven by just the irreducible minimum. Obviously, from my 
point of view, political will, the desire to change--I am a 
change agent. I am always throwing spears and trying to make 
changes. Political will is one thing, but when it is the 
irreducible minimum, it is all going to be in dollars. That is 
where the rubber meets the road. And whether you have a $12 
trillion deficit or a $15 quintillion deficit, the problems are 
still going to be hanging around our necks until we have 
sufficient resources to address them in a humane and a 
comprehensive fashion.
    Senator Kaufman. Thank you, Mr. Chairman.
    Chairman Specter. Thank you, Senator Kaufman.
    Ms. Greenlee, the issue about loans has been addressed to a 
very substantial extent in a recent reconciliation bill, which 
provides for loan forgiveness, and I am a cosponsor of the John 
R. Justice Prosecutors and Defenders bill, which specifies loan 
forgiveness for defenders.
    Ms. Greenlee. Right.
    Chairman Specter. Well, thank you all very much. One final 
question. Is there anything specifically, aside from the 
funding issue, that you would like to see legislation on? Now 
is a good time with a couple Judiciary Committee members 
listening.
    Ms. Greenlee. No more laws. We have enough to see us into 
the next millennium.
    [Laughter.]
    Justice McCaffery. Senator, can you get the SERVE Act 
passed for our veterans?
    Chairman Specter. For veterans, yes, we can. I think we 
will move ahead on that.
    Senator Kaufman. Let me tell you one thing about--you know, 
everybody talks about bipartisanship in Washington and how hard 
it is. There are a number of issues that you always get 
bipartisan support--I have never seen it in all the years I 
have been around the Senate--and that is veterans. I mean, you 
sit in a hearing, and it is just like, ``What can we do more 
for our veterans?'' And, you know, what our people do, what our 
folks are doing, especially in Afghanistan and Iraq right now, 
is--I mean, the sacrifices they are making, their families are 
making, and I am so proud of the Congress because we are 
putting out really good things to take care of veterans that 
come back but also take care of our veterans from previous 
wars. It is really a bipartisan issue. It goes right to the 
bone.
    Justice McCaffery. Senator Kaufman, Senator Specter held 
hearings in Pittsburgh. I flew out for the hearings in support 
of our veterans courts, serving veterans with post-traumatic 
stress disorder. Our district attorney's office, our public 
defender's office are working here in Philadelphia County, but 
they have opened in Allegheny County, Scranton, Pennsylvania, 
and here. And we are trying to get them statewide, but, again, 
it all comes down to funding. And I know--I believe both of you 
gentlemen were cosponsors of the SERVE Act, along with Senator 
Kerry, but we need that money into the States to help our 
veterans with the VA. And, by the way, the VA has been 
absolutely wonderful in supporting our programs. Thank you.
    Chairman Specter. Justice McCaffery, I think that 
legislation has a good chance. For those who do not know the 
contours of it, it provides for a veterans court where the 
court has special sensitivity to what the veteran has gone 
through. A veteran comes into court with post-traumatic stress 
disorder might explain what goes on and that you need--it is 
very useful to have some expertise by the judge, by the court 
in dealing with that. I have legislation pending under the 
caption of a Veterans Bill of Rights which deals with a number 
of items. One of them is expanding the veterans court. Another 
is the plan to eliminate homelessness for veterans and the 
issue of tax credits to employ veterans. But as Senator Kaufman 
points out, that is a big, big issue, and that is one which is 
being addressed on a bipartisan basis.
    Well, thank you, Justice McCaffery----
    Ms. Abraham. Could I just take a point of privilege, 
Senator, since you asked? I know that you and others on the 
Senate Judiciary Committee and elsewhere have supported Senator 
Webb's----
    Chairman Specter. Crime Commission.
    Ms. Abraham. What is it called?
    Chairman Specter. Crime Commission. I am the cosponsor----
    Ms. Abraham. The Crime Commission of 2010----
    Chairman Specter. Webb-Specter.
    Ms. Abraham. Yes. The preamble to his putting this bill up 
for consideration got me a little bit nervous when he tried to 
compare China's imprisonment system to ours and Japan's. But 
let that go for the time being. The bill has been voted on, and 
there is going to apparently be a commission. All I am going to 
request is that when the commission--which seems to be very, 
very small--is considered, it be enlarged because I do not 
think the commission membership number is broad enough to be a 
comprehensive review of the criminal justice system. And I will 
volunteer my services to be a member of the commission if you 
see me fit to serve.
    Chairman Specter. OK. Thank you, Justice McCaffery, D.A. 
Abraham, Deputy Mayor Gillison, Ms. Greenlee, and Professor 
Goldkamp.
    That concludes our hearing. Thank you all.
    [Whereupon, at 10:39 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.] 

    [GRAPHIC] [TIFF OMITTED] T1572.001
    
    [GRAPHIC] [TIFF OMITTED] T1572.002
    
    [GRAPHIC] [TIFF OMITTED] T1572.003
    
    [GRAPHIC] [TIFF OMITTED] T1572.004
    
    [GRAPHIC] [TIFF OMITTED] T1572.005
    
    [GRAPHIC] [TIFF OMITTED] T1572.006
    
    [GRAPHIC] [TIFF OMITTED] T1572.007
    
    [GRAPHIC] [TIFF OMITTED] T1572.008
    
    [GRAPHIC] [TIFF OMITTED] T1572.009
    
    [GRAPHIC] [TIFF OMITTED] T1572.010
    
    [GRAPHIC] [TIFF OMITTED] T1572.011
    
    [GRAPHIC] [TIFF OMITTED] T1572.012
    
    [GRAPHIC] [TIFF OMITTED] T1572.013
    
    [GRAPHIC] [TIFF OMITTED] T1572.014
    
    [GRAPHIC] [TIFF OMITTED] T1572.015
    
    [GRAPHIC] [TIFF OMITTED] T1572.016
    
    [GRAPHIC] [TIFF OMITTED] T1572.017
    
    [GRAPHIC] [TIFF OMITTED] T1572.018
    
    [GRAPHIC] [TIFF OMITTED] T1572.019
    
    [GRAPHIC] [TIFF OMITTED] T1572.020
    
    [GRAPHIC] [TIFF OMITTED] T1572.021
    
    [GRAPHIC] [TIFF OMITTED] T1572.022
    
    [GRAPHIC] [TIFF OMITTED] T1572.023
    
    [GRAPHIC] [TIFF OMITTED] T1572.024
    
    [GRAPHIC] [TIFF OMITTED] T1572.025
    
    [GRAPHIC] [TIFF OMITTED] T1572.026
    
    [GRAPHIC] [TIFF OMITTED] T1572.027
    
    [GRAPHIC] [TIFF OMITTED] T1572.028
    
    [GRAPHIC] [TIFF OMITTED] T1572.029
    
    [GRAPHIC] [TIFF OMITTED] T1572.030
    
    [GRAPHIC] [TIFF OMITTED] T1572.031
    
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
